U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 11, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Gary Allen Kachina v. United States of America,
S.Ct. No. 20-5400

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 11,
2020, and placed on the docket on August 18, 2020. The government’s response is due on
September 17, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 19, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5400
KACHINA, GARY ALLEN
USA

GARY ALLEN KACHINA
18427-041
USP TUCSON
PO BOX 24550
TUCSON, AZ 85734

